         Office of Inspector General




September 22, 2006

ANTHONY M. PAJUNAS
VICE PRESIDENT, NETWORK OPERATIONS MANAGEMENT

SUBJECT:        Audit Report – Facility Utilization at the Los Angeles, California, Worldway
                Airport Mail Center (Report Number NO-AR-06-007)

This report presents the results of our review of facility utilization at the Los Angeles,
California, Worldway Airport Mail Center (AMC), located in the Pacific Area (Project
Number 05WG012NO001). Our objective was to assess how effectively the Worldway
AMC facility was used. This report is the second of two reports on the Worldway AMC.
We conducted these audits at the request of the Los Angeles District and the Pacific
Area.

We found excess floor space exists for mail processing at the Worldway AMC. As a
result, the U.S. Postal Service incurred additional costs unnecessarily. The Postal
Service needs to use the vacant floor space available at the Worldway AMC. One
alternative would be to collocate the Los Angeles International Service Center at the
Worldway AMC. Collocating the two facilities would reduce lease, utility, and
transportation costs by almost $9 million during a 3-year period and could also increase
operational processing efficiency and service scores.

We made one recommendation in the report. Management stated they agreed in part
with our finding and recommendation and has initiatives planned addressing the issues
in this report. Management’s comments and our evaluation of these comments are
included in the report.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Robert J. Batta,
Director, Network Operations - Processing, or me at (703) 248-2300.
 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI




Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments
cc: Patrick R. Donahoe
    William P. Galligan
    Michael J. Daley
    Michael J. Nappi
    William Almaraz
    Gerard K. Ahern
    Robert P. Fisher
    Steven R. Phelps
Facility Utilization at the Los Angeles, California,              NO-AR-06-007
 Worldway Airport Mail Center



                                        TABLE OF CONTENTS

 Executive Summary                                                               i

 Part I

 Introduction                                                                    1

     Background                                                                  1
     Objective, Scope, and Methodology                                           2
     Prior Audit Coverage                                                        2

 Part II

 Audit Results                                                                   4

     Facility Utilization at the Worldway Airport Mail Center                    4
     Recommendation                                                              6
     Management’s Comments                                                       6
     Evaluation of Management’s Comments                                         6

 Appendix A. Pacific Area Customer Service Districts by Three-Digit ZIP Code     7
             Area

 Appendix B. Prior Audit Coverage                                                8

 Appendix C. Management’s Comments                                               9
Facility Utilization at the Los Angeles, California,                             NO-AR-06-007
 Worldway Airport Mail Center



                                       EXECUTIVE SUMMARY
 Introduction                      The U.S. Postal Service Office of Inspector General
                                   assessed how effectively the Worldway Airport Mail Center
                                   (AMC) facility was used. The Worldway AMC is in the
                                   Pacific Area and is part of the Los Angeles Customer
                                   Service District. This audit is one of two reports on the
                                   Worldway AMC. We conducted these audits at the request
                                   of the Los Angeles Customer Service District Manager and
                                   in cooperation with the Pacific Area.

 Results in Brief                  We found excess floor space exists for mail processing at
                                   the Worldway AMC. This condition existed because the
                                   U.S. Postal Service did not fully evaluate alternatives for
                                   using the space when the facility transitioned to an airport
                                   transfer center. Consequently, the Postal Service incurred
                                   unnecessary additional costs.

                                   One alternative would be to collocate the Los Angeles
                                   International Service Center (ISC) at the Worldway AMC.
                                   Collocation of the two facilities would reduce lease, utility,
                                   and transportation costs by almost $9 million during a
                                   3-year period. This action may also increase operational
                                   processing efficiency and service scores.

 Summary of                        We recommended the Postal Service consider collocating
 Recommendations                   the Los Angeles ISC at the Worldway AMC and use the
                                   vacant floor space at the Worldway AMC.

 Summary of                        Management stated they agreed in part with our finding and
 Management’s                      recommendation. They agreed to study collocating the
 Comments                          Los Angeles ISC mail processing operations at the
                                   Worldway AMC. They also agreed to notify the Pacific
                                   Area to pursue other options for the vacant floor space if
                                   collocation is not viable. Management’s comments, in their
                                   entirety, are included in Appendix C.

 Overall Evaluation of             Management’s comments are responsive to our
 Management’s                      recommendation. Management’s planned actions should
 Comments                          correct the issues identified in the report.




                                                       i
Facility Utilization at the Los Angeles, California,                                             NO-AR-06-007
 Worldway Airport Mail Center


                                               INTRODUCTION
    Background                         An airport mail center (AMC) is a postal facility located at or
                                       adjacent to an airport. As of July 2005, the U.S. Postal
                                       Service had 71 of these facilities.1 An AMC’s core function
                                       is to serve as the transfer point for mail tendered to the
                                       airlines. Its primary operations are to assign mail to flights;
                                       receive and dispatch mail to and from air carriers; accept
                                       and sort mail to and from plants; perform measurement and
                                       quality control of air carrier operations; and manage
                                       functions specific to airport operations.

                                       In fiscal year (FY) 2005, 35 of these facilities (49 percent)
                                       also processed mail. However, the Postal Service has
                                       decided to standardize these facilities, streamline
                                       operations, and eliminate all non-core operations. These
                                       facilities will be renamed airport transfer centers (ATC) and
                                       will only facilitate the transportation of mail to and from
                                       airlines.

                                       The Worldway AMC is located in the Los Angeles,
                                       California, Customer Service District in the Pacific Area.
                                       (See Appendix A for Pacific Area districts.) The Worldway
                                       AMC processed over 340 million first handling pieces
                                       (FHP)2 and used 1.5 million workhours in FY 2004. In
                                       April 2005, all automation equipment for mail processing
                                       operations was removed from the site as it began the
                                       transition to an ATC. However, the Worldway AMC
                                       continued to process mail on a sporadic basis for the
                                       Los Angeles Bulk Mail Center and the Los Angeles
                                       Processing and Distribution Center.

                                       The Postal Service owns the Worldway AMC, but leases the
                                       land from the Department of Airports for about $900,000
                                       annually. The building contains 313,071 square feet of
                                       interior space, with a platform of 15,096 square feet, on a
                                       site with dimensions of 342,848 square feet.

    International Service              The Postal Service established international service centers
    Centers                            (ISC) in 1996 to better compete in the growing international
                                       mail market, with a dedicated workforce and single-focus
                                       management of international mail. The Postal Service
                                       hoped that this approach would improve service and provide

1
  We use the term “facilities” to describe both airport mail centers and facilities. Airport mail centers and facilities
perform essentially the same functions and have the same operations, but the centers are generally larger than the
facilities.
2
  A FHP is a letter, flat, or parcel that receives its initial distribution in a Postal Service facility.

                                                            1
Facility Utilization at the Los Angeles, California,                                                NO-AR-06-007
 Worldway Airport Mail Center


                                        the structure needed to support new products and increase
                                        revenue. Before 1996, exchange offices3 processed
                                        international mail.4 These exchange offices were collocated
                                        in processing and distribution centers where domestic mail
                                        processing took precedence over international mail.

                                        The Los Angeles ISC is located in the Santa Ana, California,
                                        Customer Service District in the Pacific Area. The Postal
                                        Service leases this facility for approximately $1.3 million per
                                        year. The building contains 189,388 square feet of interior
                                        space, which includes the 26,961 square feet used by the
                                        U.S. Customs and Border Protection, Department of
                                        Homeland Security.

    Objective, Scope, and               The objective of the audit was to assess how effectively the
    Methodology                         Worldway AMC facility was used. To accomplish the
                                        objective, we interviewed Postal Service officials; analyzed
                                        mail volume, workhours, and machine output; reviewed
                                        transportation and facility leases; and observed mail
                                        processing operations.

                                        We relied on Postal Service data systems, including the
                                        National Work Hour Reporting System, Web Enterprise
                                        Information System, Web End of Run System, and
                                        Management Operating Data System. We did not test the
                                        controls over these systems. However, we checked the
                                        accuracy and reasonableness of the data by confirming our
                                        analysis and results with Postal Service managers and by
                                        consulting several data sources. We found no material
                                        differences.

                                        We conducted this audit from February 2005 through
                                        September 2006 in accordance with generally accepted
                                        government auditing standards and included such tests
                                        of internal controls as we considered necessary under
                                        the circumstances. We discussed our observations and
                                        conclusions with management officials and included their
                                        comments where appropriate.

    Prior Audit Coverage                We have issued 20 audit reports on operational efficiency.
                                        As a result of these audits, the Postal Service has agreed to
                                        reduce approximately 2.4 million workhours.

3
  An international exchange office or international mail service center is a post office, airport mail center, or facility
authorized to exchange international mail, both air and surface, with another country.
4
  International mail is mail originating in one country and arriving in another. It is classified as Postal Union Mail
(letters, cards, and other articles), postal parcels, and Express Mail International® Service.

                                                              2
Facility Utilization at the Los Angeles, California,                          NO-AR-06-007
 Worldway Airport Mail Center


                                     These reductions could produce a cost avoidance of about
                                     $692 million during a 10-year period. Two of these reports
                                     covered facility utilization. (See Appendix B for details.)




                                                       3
Facility Utilization at the Los Angeles, California,                                         NO-AR-06-007
 Worldway Airport Mail Center



                                             AUDIT RESULTS
    Facility Utilization at          We found excess space for mail processing existed at the
    the Worldway Airport             Worldway AMC. In January 2005, all automation equipment
    Mail Center                      for mail processing operations was removed from the site
                                     when the Worldway AMC transitioned to an ATC. This
                                     change left the second floor empty except for the areas used
                                     to secure and process registered mail and to store excess
                                     equipment. (See illustration below.)




                                     Illustration 1: Excess space on second floor at Worldway AMC.



                                     39 U.S.C. Chapter 4, § 403 (a) states, “The Postal Service
                                     shall plan, develop, promote, and provide adequate and
                                     efficient postal services . . . .”

    Causes and Impact on             The excess processing space existed because the Postal
    Operations                       Service did not fully evaluate alternatives for using the
                                     space when the facility transitioned to ATC. Consequently,
                                     the Postal Service incurred unnecessary additional costs.

                                     Because of this excess capacity, the Worldway AMC has
                                     space to house other mail processing operations. One
                                     alternative would be to collocate the Los Angeles, California,
                                     ISC.5 By sharing the Worldway AMC with the Los Angeles
                                     ISC, the Postal Service could reduce lease, utility, and

5
 The Los Angeles ISC currently occupies leased space in a facility in Carson, California. Before leasing the space in
Carson, the Los Angeles ISC was located in the Worldway AMC.


                                                          4
Facility Utilization at the Los Angeles, California,                                       NO-AR-06-007
 Worldway Airport Mail Center



                                     transportation costs by approximately $9 million during the
                                     3 years remaining on the lease. (See Table 1 below.)

                                           Table 1 – Projected Savings from Collocating
                                                Los Angeles ISC at Worldway AMC
                                      Annual Transportation Costs          $1,102,833
                                      Rent and Utilities Annual Costs       1,846,794
                                      Total Rent, Utility, and
                                                                           $2,949,627
                                      Transportation
                                      Savings Projected for 3 Years        $8,848,882

                                     The Postal Service should consider the potential labor
                                     impact from housing the ISC and the Worldway AMC in
                                     one facility. The Postal Service should also assess the
                                     additional costs of relocating the U.S. Customs and Border
                                     Protection, Department of Homeland Security, which
                                     operationally must be located with the ISC. In addition,
                                     domestic and international mail must continue to be
                                     processed separately in order to ensure that international
                                     mail service has a dedicated workforce and single-focus
                                     management.6

                                     However, operating efficiency could be improved while still
                                     allowing the necessary separation of operational processes.
                                     For example:

                                         •    Transportation time would be reduced because a
                                              28-mile round trip from the Worldway AMC to the ISC
                                              through Los Angeles traffic would be eliminated.

                                         •    The operational window of time for processing mail
                                              would be expanded because of time saved by not
                                              having to transport the mail.

                                         •    Transportation would be more efficiently used
                                              because trucks that return empty from dropping off
                                              international mail from Southern California postal
                                              facilities at the ISC could transport domestic mail
                                              back to postal facilities from the Worldway AMC.




6
  A dedicated workforce and single-focus management is part of the Postal Service’s approach to improving
international mail service and increasing revenue.

                                                        5
Facility Utilization at the Los Angeles, California,                               NO-AR-06-007
 Worldway Airport Mail Center



                                       •    Service scores may improve because delivery units
                                            would receive the mail earlier, allowing carriers to start
                                            their routes sooner.

 Recommendation                    We recommend the Vice President, Network Operations
                                   Management:

                                       1. Consider collocating the Los Angeles International
                                          Service Center’s mail processing operations at the
                                          Worldway Airport Mail Center. If this is not a viable
                                          alternative, notify the Pacific Area to pursue other
                                          options for the vacant floor space.

 Management’s                      Management stated they agreed in part with our finding and
 Comments                          recommendation. They agreed to study collocating the
                                   Los Angeles ISC mail processing operations at the Worldway
                                   AMC. They also agreed to notify the Pacific Area to pursue
                                   other options for the vacant floor space if collocation is not
                                   viable.

 Evaluation of                     Management’s comments are responsive to our
 Management’s                      recommendation. Management’s planned actions should
 Comments                          correct the issues identified in the report.




                                                       6
Facility Utilization at the Los Angeles, California                              NO-AR-06-007
 Worldway Airport Mail Center


                                                      APPENDIX A
                                           PACIFIC AREA CUSTOMER SERVICE
                                        DISTRICTS BY THREE-DIGIT ZIP CODE AREA




                                                      PACIFIC AREA MAP


                                                             7
      Facility Utilization at the Los Angeles, California                           NO-AR-06-007
       Worldway Airport Mail Center


                                                   APPENDIX B
                                              PRIOR AUDIT COVERAGE
                                                                        Issued     Workhour        Monetary
                    Audit                             Report Number      Date      Savings           Impact
Worldway AMC, Los Angeles, CA7                         NO-AR-06-006   09/12/2006     760,000       $192,000,000
Washington D.C., BMC8                                  NO-AR-06-003   2/22/2006      400,000        118,000,000
Chicago, IL, AMRU9                                     NO-AR-06-002   12/22/2005       3,860           1,100,000
Canton, OH, P&DC10                                     NO-AR-05-013   9/22/2005      202,000          63,000,000
Los Angeles, CA, ISC11                                 NO-AR-05-011    6/17/2005      85,000          26,100,000
Los Angeles, CA, ISC AMRU                              NO-AR-05-010   4/28/2005        5,450           1,800,000
San Francisco, CA, AMRU                                NO-AR-05-012    9/6/2005        7,757           2,600,000
Akron, OH, P&DC                                        NO-AR-05-009    3/30/2005     235,000          74,000,000
Mansfield, OH, Main Post Office                        NO-AR-05-004   12/8/2004       52,000          17,200,000
New York, NY, ISC                                      NO-AR-04-009    9/24/2004     320,000          98,000,000
New York, NY, ISC AMRU                                 NO-AR-04-011   9/24/2004       30,000           9,300,000
San Francisco, CA, ISC and GSA12 Facility*             NO-AR-04-006   3/31/2004      120,000          44,200,000
Oakland, CA, ISC and the Regatta Facility*             NO-AR-04-007   3/31/2004       25,000          17,013,959
Springfield, VA, BMEU13                                NO-AR-04-004    2/9/2004        2,775             969,893
Columbia, MD, BMEU                                     NO-AR-04-002   12/26/2003       3,960           1,400,000
Southern MD, BMEU                                      NO-AR-04-001   12/24/2003      20,240           8,400,000
San Francisco, CA, BMEU                                AO-AR-03-002   9/25/2003       18,000           6,900,000
Los Angeles, CA, BMEU                                  AO-AR-03-001   7/31/2003       28,000           9,300,000
Seattle, WA; Minneapolis, MN; and Des Moines,          CQ-AR-03-001   3/28/2003       15,053             588,730
IA, BMEU
Colorado/Wyoming Performance Cluster, BMEU             CQ-AR-02-001   9/26/2002        15,947         1,000,000
Total Savings                                                                       2,350,042      $692,872,582

      Note: Two of these reports covered facility utilization, as indicated by the
      asterisk.




      7
         Airport Mail Center
      8
         Bulk Mail Center
      9
         Airmail Records Unit
      10
         Processing and Distribution Center
      11
          International Service Center
      12
          General Services Administration
      13
          Business Mail Entry Unit

                                                            8
Facility Utilization at the Los Angeles, California          NO-AR-06-007
 Worldway Airport Mail Center


                                          APPENDIX C
                                     MANAGEMENT’S COMMENTS




                                                      9
